                                                       U.S. DEPARTMENT OF
                                    HOUSING AND URBAN DEVELOPMENT
                                                OFFICE OF INSPECTOR GENERAL




                                                                                               MEMORANDUM NO:
                                                                                                 2013-LA-0801

October 3, 2012

MEMORANDUM FOR:                      Charles S. Coulter, Deputy Assistant Secretary for Single Family
                                     Housing, HU



FROM:                                Tanya E. Schulze, Regional Inspector General for Audit, Los
                                     Angeles Region, 9DGA

SUBJECT:                             HUD Paid for Unnecessary REO M&M III Field Service Manager
                                     Administrative Costs


                                                  INTRODUCTION

In conjunction with our external audit of Innotion Enterprises, Inc., 1 we reviewed termite
inspection passthrough costs that it submitted to the U.S. Department of Housing and Urban
Development (HUD) for payment as part of its real estate-owned (REO) Management and
Marketing III (M&M III) program field service manager contract. We selected Innotion’s Las
Vegas, NV, branch based on the size and scope of its contract with HUD. One of our objectives
was to determine whether Innotion’s Las Vegas, NV, branch met administrative requirements
concerning passthrough cost reasonableness.

HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the review.

The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly this report will be posted at
http://www.hudoig.gov.




1
    OIG external audit of Innotion Enterprises, Inc. (report number 2012-LA-1010, issued September 12, 2012)
                                                  Office of Audit – Region 9
                                     4611 W. 6th Street, Suite 1160, Los Angeles, CA 90017
                                        Phone (213) 213-894-8016, Fax (213) 894-8115
                                 Visit the Office of Inspector General Website at www.hudoig.gov.
                                   SCOPE AND METHODOLOGY

We performed our onsite review work at Innotion’s Las Vegas, NV, branch office at 2749 North
Lamb Boulevard, Las Vegas, NV between January and June 2012. The review generally
covered July 1 to December 31, 2011, but was expanded when necessary. To accomplish our
objective, we:

    •   Reviewed the management and marketing support services contract’s field service
        manager performance work statement;

    •   Reviewed HUD regulations and reference materials for management and marketing
        support services;

    •   Reviewed passthrough costs for 158 termite inspections, representing 10 randomly
        selected transmittals in the 1S contract area (Arizona, Idaho, and Nevada);

    •   Obtained copies of invoices for actual termite inspections;

    •   Requested confirmation from termite companies on the actual amount paid for the
        inspections; and

    •   Interviewed appropriate staff from HUD, Innotion, and Innotion’s subcontractors,
        including the company that performed the termite services.

We randomly selected 10 transmittals for termite inspections using a nonstatistical sample from a
universe of 54. The sample represented a total of 183 termite inspections, of which we were able
to confirm amounts for only 158 of the termite inspections. 2 The transmittals were pulled from
HUD’s P260 system, which is an Internet-based system that serves as the primary system of
record for all REO case management transactions. We did not rely solely on information
obtained from the P260 system. Information was verified through examination of documentation
and re-verifications. We did not project our findings to the population using the sample.

We followed generally accepted government auditing standards. However, the results reported
in this memorandum stemmed from our external audit of Innotion and its compliance with its
contract when submitting passthrough costs to HUD; thus, this report is significantly reduced in
scope and should not be considered a detailed analysis or assessment of HUD’s internal controls
and operations. These facts do not affect the significance of the condition identified in this
memorandum.

We provided the discussion draft report to HUD on August 24, 2012 and received informal
written comments on September 26, 2012. The discussion draft was revised in response to the
informal comments. Based on the revised discussion draft, HUD declined to provide a formal
written response.

2
  We were unable to confirm 4 of 19 termite companies regarding the amounts paid; however, the confirmations
received from the other 15 companies were sufficient for the purposes of our review.


                                                       2
                                        BACKGROUND

HUD has outsourced the disposition of its REO inventory to management and marketing
contractors since 1999. To ensure the continued success of its disposition program and to further
capitalize on the private sector’s disposition expertise, in 2007, HUD conducted extensive
market research on industry best practices surrounding the REO asset disposition process to
structure the third generation of the contracting program, known as M&M III. Based on market
research results for M&M III, HUD developed a disposition structure for the management and
marketing of REO inventory that will streamline its operations, capitalize on the expertise of its
potential contractors, and provide flexibility to meet changing market conditions in the REO
industry.

HUD’s Financial Control Manual, paragraph 13.3, Pass Through Costs for Field Service
Managers, states that all costs of performance under this M&M III contract are the expense of
the field service manager’s contractor unless otherwise specifically identified as a passthrough
expense in the contract. The contracting officer must determine whether costs are allowable and
reasonable in accordance with the Federal Acquisition Regulation Part 31. The performance
work statement, attachment 5, Allowable Pass Through Expenses, states that the contractor must
be reimbursed for the actual cost of the service or item. It further defines actual cost as the
amount paid by the contractor to the billing parties and that no administrative costs of the
contractor are to be added.

On January 16, 1997, Innotion incorporated its business. HUD selected Innotion as its field
service manager to cover four contract areas. However, our audit objective covered only one
contract area, which includes Arizona, Idaho, and Nevada, with a contract effective date of July
1, 2011. From the contract effective date to April 24, 2012, Innotion submitted 54 termite
inspection transmittals totaling $95,567. Innotion initially used a subcontractor called Safeguard
Properties, which scheduled termite inspections with Terminix. Safeguard charged Innotion
$125 per inspection. Innotion stated that Terminix did not have the capacity to keep up with the
workload and was not willing to go to some remote areas to perform the inspections. As a result,
Innotion switched to One Stop Environmental to order its termite inspections.

Innotion’s principals became acquaintances with the president of One Stop, and One Stop’s
president owned another business in the same building as Innotion’s Indiana office. Innotion
was One Stop’s only customer, and One Stop was formed in November 2010 to accommodate
Innotion’s REO needs. One Stop ordered all termite inspections for Innotion.


                                   RESULTS OF REVIEW

HUD paid for unnecessary administrative costs of Innotion’s subcontractor under HUD’s field
service manager contract. This condition occurred due to the unclear definitions of actual and
administrative costs in HUD’s contract with Innotion. Although the contract stated that Innotion
could pay only the amount billed and not add its own administrative costs, it did not specifically
disallow the payment of administrative costs incurred by a subcontractor, such as One Stop, that
subcontracted Innotion’s work to other termite inspection contractors. As a result, 30 percent



                                                3
($4,914) of the termite inspection costs paid by HUD in our sample were for the administrative
costs of Innotion’s subcontractor. If HUD does not revise its field service manager contracts, it
may continue to pay for unnecessary administrative costs for termite inspections and other
passthrough costs submitted by its field service manager contractors.

Innotion Used HUD’s Unclear Contract Language To Bill the Administrative Costs of Its
Subcontractor

Innotion’s field service manager contract with HUD permitted it to bill HUD for actual
passthrough costs, including termite inspections. The performance work statement specified that
Innotion must be reimbursed for the actual cost of the service or item. Further, the performance
work statement defined actual cost as the amount paid by Innotion to the billing parties and
stated that no administrative costs of Innotion were to be added.

Termite Inspection Costs Were Marked Up To Pay for Administrative Costs

Innotion did not conduct termite inspections in house and, instead, used One Stop to order and
schedule all of its inspections. Since One Stop did not conduct termite inspections, it
subcontracted all termite inspection work. One Stop’s president stated that termite companies
offered the company a discount from the regular price of termite inspections. In the cases
reviewed, One Stop paid its subcontractors the discounted fee and billed Innotion the normal,
nondiscounted rate. As a result, One Stop received its fees based on the discount offered by the
termite companies.

For example, Western Exterminator Company normally charged $75 for an inspection but
charged One Stop only $60. One Stop billed Innotion $75 for the inspection. The $75 billed to
Innotion met the definition of actual cost in the field service manager contract. However, the
$15 difference between the billed amounts was a 20-percent markup for the administrative costs
of One Stop.

In other instances, termite companies did not offer a discounted rate but, instead, adjusted the bill
higher than the amount paid by One Stop. For example, Realty Pest Services invoiced One Stop
$100 for a termite inspection, but One Stop paid only $80 to Realty Pest Services. Through this
arrangement, invoices from One Stop and Realty Pest Services showed $100 as the billed
amount, while the actual cost of the termite inspection was only $80, the same price offered to all
Realty Pest Services customers. Realty Pest Services stated that this billing arrangement was not
normal business practice but agreed to bill in this manner as requested by One Stop. In essence,
it built in One Stop’s administrative cost.




                                                 4
Administrative Costs Accounted for an Average of 30 Percent of Termite Inspection Costs

In our sample of 157 3 termite inspections, $4,914 (30 percent) of $16,589 in passthrough costs
billed to HUD were for One Stop’s administrative costs. Since One Stop did not consistently bill
the same markup to Innotion for termite inspections, the amount of administrative cost mark-up
in our sample varied in both amount and percentage. For example, One Stop initially billed
Innotion at a rate of $125 per inspection, which resulted in a markup as high as 59 percent ($74).
However, after performing market research and developing a network of termite inspection
companies, One Stop reduced this rate to 20 percent for most of the inspections in our sample.

Through Innotion’s arrangement with One Stop, HUD paid for unnecessary administrative costs
of at least $4,914 for termite inspections for properties under its REO M&M III contract with
Innotion and may have incurred such costs with other field service managers as well. We
attribute this condition to unclear language in HUD’s field service manager contract. If HUD
does not revise its field service manager contracts, it may continue to pay for unnecessary
administrative costs for termite inspections and other passthrough costs.


                                          RECOMMENDATION

We recommend that HUD’s Deputy Assistant Secretary for Single Family Housing:

1A.     Ensure that HUD is paying fair and reasonable prices for passthrough expenses by
        ascertaining that field service managers are awarding subcontracts based on obtaining
        bids from qualified vendors that include, but are not limited to, the entities that actually
        perform the work. If this change had been implemented before our review, HUD could
        have put at least $4,914 to better use.




3
 We were able to verify 158 inspections in our sample of 183. Of these 158 inspections, 157 included mark-ups for
administrative costs.


                                                        5
                                   APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                 Recommendation                          Funds to be put
                     number                              to better use 1/
                             1A                                     $4,914



1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. If HUD implements our recommendations, it will pay the
     field service managers the appropriate amounts for services that were provided for HUD
     REO properties. Funds to be put to better use represent the amount that HUD paid for
     administrative costs for termite inspections in our sample.




                                             6
